Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services
Grants to the Crow Creek Sioux Tribe
Fort Thompson, South Dakota

GR-60-02-001


April 2002

Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the grants awarded by 
the Office of Community Oriented Policing Services (COPS) to the Crow Creek Sioux Tribe (Crow Creek), 
Fort Thompson, South Dakota.  The purpose of the grants are to enhance community policing.  Crow Creek
was awarded a total of $621,914 to hire seven new police officers.
We found the Crow Creek to be in material non-compliance with COPS grant requirements.  We reviewed 
Crow Creeks compliance with five1 essential grant conditions, and found weaknesses in each of the areas we tested:  local match requirements, reimbursement requests, hiring of officers, retention of officer positions, and community policing.  As a result of the deficiencies identified below, we question the entire award amount of $621,914 in grant funds received.2

Documentation was not provided by Crow Creek to identify the source, date, and amount of local 
matching funds.

Unsupported3  costs totaling $262,581 were charged to the FAST, UHP I and UHP II awards.
The number of officers funded by the COPS grants were not hired and maintained for the required award periods.  However, reimbursement was requested for the entire award amounts.
None of the seven officer positions previously funded by the COPS grants were retained.
Community policing activities listed in the grant application were not fully implemented.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our 
audit objectives, scope and methodology appear in Appendix I.


Footnotes
We also ordinarily review budgeting for officers to determine whether the grantee planned to maintain the number of locally funded officers positions it had before receiving a COPS grant.  However, we were unable to assess Crow Creeks compliance with the budgeting for officers because budgets were not prepared prior to FY 2001.  The FY 2001 and FY 2002 budgets did not identify officer positions, and Crow Creek did not have a police force prior to receiving its first COPS grant.  The Chief Finance Officer of Crow Creek stated that there were no local-funded officer positions prior to or during the grant periods.

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and the definition of questioned costs.
Due to the lack of documentation, we were unable to determine the specific amount of unallowable costs.  Therefore, they are included in unsupported costs.